TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Settlement Initiative for Investors in a
                  Variety of Bond and Option Sales Strategies
                  Was Successful and Surfaced Possible Next
                   Steps for Curtailing Abusive Tax Shelters



                                             March 2006

                              Reference Number: 2006-30-065




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            March 31, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, LARGE AND MID-SIZE BUSINESS DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Settlement Initiative for Investors in a Variety
                             of Bond and Option Sales Strategies Was Successful and Surfaced
                             Possible Next Steps for Curtailing Abusive Tax Shelters
                             (Audit # 200530002)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Bond and
 Option Sales Strategies. The overall objectives of this review were to determine the success of
 implementing the settlement initiative for participants in a variety of Bond and Option Sales
 Strategies, commonly referred to as the “Son of Boss” tax shelter, and the actions taken against
 those that declined or were ineligible to participate in the initiative.
 The taxpaying public has long sought ways to minimize tax liabilities by sheltering income and
 gains from taxes through investments and other financial-related transactions. Some tax shelters,
 however, have received widespread publicity because they purportedly abuse the tax law,
 represent a significant loss of tax revenue, and undermine the public’s confidence in the tax
 system. The Son of Boss is one such abusive tax shelter. For this abusive tax shelter, the IRS
 estimated understated tax liabilities in excess of $6 billion.

 Synopsis
 The IRS considers identifying and combating abusive tax shelters extremely important, and this
 priority was reflected in the emphasis given to resolving the Son of Boss abusive tax shelter and
 ensuring a successful settlement initiative. The IRS publicly announced the settlement initiative
 in May 2004, and IRS management at all levels closely coordinated the initiative’s
 implementation to ensure its success. A centralized office was established to receive investor
 application packages, where they were screened for suitability and forwarded to Examination
                    The Settlement Initiative for Investors in a Variety of Bond and
                    Option Sales Strategies Was Successful and Surfaced Possible
                            Next Steps for Curtailing Abusive Tax Shelters


function groups located in offices throughout the country. Once the packages were received in
the groups, examiners were assigned to validate the accuracy of the information on an investor
application, determine the amount of out-of-pocket expenses1 to allow, compute the amount of
additional taxes owed, execute a closing agreement, and make arrangements with the investor to
receive payment for the taxes owed. Throughout the initiative, interim reports were prepared as
a control mechanism to monitor progress and track the cases for both investors participating in
the settlement and nonparticipating investors. As of March 16, 2005, interim reports showed
1,039 participating investors had settled their cases by paying or agreeing to pay over
$2.7 billion in taxes, interest, and penalties.
Based on our work, we have two observations the IRS may find useful in its efforts to curtail
abusive tax shelters. First, experience demonstrated that the general 3-year statutory assessment
period was insufficient for tax administrators to examine and assess all identified participants in
the Son of Boss abusive tax shelter. Although it is difficult to precisely estimate the fiscal
impact of abusive tax shelters, State officials in California estimated losing between $2.4 billion
and $4 billion over 4 years to various abusive tax shelters. They changed State income tax laws
to give California State tax administrators up to 8 years to assess additional taxes related to
abusive tax shelters. Steps were also taken in New York and Illinois to double statutory
assessment periods from 3 years to 6 years.
At the Federal Government level, where the loss from abusive tax shelters has been estimated at
$85 billion,2 a provision in the American Jobs Creation Act of 2004 (AJCA)3 provided the IRS
with up to 1 additional year to assess taxes related to a “listed” transaction4 if it is not properly
disclosed on the return. Despite the positive, open-ended feature in the AJCA provision, our
analysis of 1,958 income tax return examinations of investors in the Son of Boss abusive tax
shelter found the 1-year limitation does not accurately reflect the time needed to complete the
examination and assessment process involved in resolving complex, technical abusive tax
shelters. As a result, the 1-year limitation in the AJCA could prove overly restrictive to realizing
intended benefits from the extended assessment period.
Another possible next step the IRS could take is to plan for and conduct an assessment that
captures the overall successes achieved and lessons learned in resolving the Son of Boss abusive
tax shelter. Such an assessment could provide an important tool for managers to use if they are
faced with a challenge of this magnitude in the future and would be in line with both the



1
  Out-of-pocket expenses are transaction fees that were typically paid by investors to promoters.
2
  Internal Revenue Service: Challenges Remain in Combating Abusive Tax Shelters (GAO-04-104T,
dated October 2003).
3
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
4
  A listed transaction is the same as or substantially similar to one of the types of transactions the IRS determined to
be a tax avoidance transaction and identified by notice, regulation, or other form of published guidance.
                                                                                                                       2
                   The Settlement Initiative for Investors in a Variety of Bond and
                   Option Sales Strategies Was Successful and Surfaced Possible
                           Next Steps for Curtailing Abusive Tax Shelters


Government Performance and Results Act of 19935 and IRS guidance for analyzing performance
and identifying improvement options.

Recommendations
We recommended the Commissioner, Small Business/Self-Employed Division, in conjunction
with the IRS Office of Chief Counsel and the Office of Tax Policy in the Department of the
Treasury, determine whether the AJCA provision extending the statutory assessment period is
adequate to protect tax revenues and deter participation in abusive tax shelters. If the
determination shows the AJCA provision is likely to be ineffective, a proposal should be
prepared for Congress to increase the 1-year limitation under the AJCA provision. We also
recommended the Commissioner, Small Business/Self-Employed Division, designate an IRS
study group to evaluate and document the IRS’ overall performance in resolving the Son of Boss
abusive tax shelter.

Response
IRS management agreed with one of our two recommendations and has convened a study group
to evaluate the overall performance in resolving the Son of Boss abusive tax shelter. The study
group’s report is expected by June 30, 2006. The IRS did not agree to take action and determine
whether the AJCA provision extending the statutory assessment period is adequate for protecting
tax revenues and deterring participation in abusive tax shelters. IRS management indicated in
their response that more experience is needed before they can determine whether the 1-year
provision provided by the AJCA is adequate and made technical comments to further highlight
their position for not taking action on the recommendation. Additionally, IRS management had
comments to clarify specific sections of the draft report, and we made these changes where
appropriate. Management’s complete response to the draft report is included as Appendix IV.

Office of Audit Comment
We believe the IRS may be missing an opportunity to further strengthen its ability to combat
abusive tax shelters by not taking action on the recommendation. With regard to three of the
IRS’ technical comments highlighting their position for not taking action on one of our
recommendations, we believe some clarification is needed. First, the IRS stated that, due to
complexities and other issues, Son of Boss abusive tax shelter cases were deliberately delayed to
ensure appropriate issue development and are not representative of the population of other tax
shelter returns. We view the sheer number of investors as significant and recognized in the

5
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                            3
                 The Settlement Initiative for Investors in a Variety of Bond and
                 Option Sales Strategies Was Successful and Surfaced Possible
                         Next Steps for Curtailing Abusive Tax Shelters


report that issue development involving complex transactions, such as those found in Son of
Boss abusive tax shelter cases, can involve a significant amount of time to make a correct tax
determination. Consequently, we made a recommendation to determine if the 1-year AJCA
provision extending the statute for assessment is adequate.
Second, the IRS suggested that we further clarify the impact of the extended assessment period
under the AJCA throughout the audit report. We disagree with the IRS on this point and believe
the analysis presented in the report shows that the AJCA could prove overly restrictive to fully
realizing intended benefits.
Third, the IRS indicated that examiners may request consent from the taxpayer to extend the
statute. Taxpayers, however, are not always willing to, nor are they required to, extend the
statute of limitations for the assessment of taxes. Thus, we do not believe relying on the
willingness of taxpayers, particularly those that may be involved in an abusive tax shelter, is a
sufficient mechanism for protecting tax revenues and deterring participation in abusive tax
shelters.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Curtis Hagan,
Assistant Inspector General for Audit (Small Business and Corporate Programs), at
(202) 622-3837.




                                                                                                    4
                      The Settlement Initiative for Investors in a Variety of Bond and
                      Option Sales Strategies Was Successful and Surfaced Possible
                              Next Steps for Curtailing Abusive Tax Shelters




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Son of Boss Abusive Tax Shelter Received
          Top Priority to Ensure a Successful Settlement Initiative ............................Page 3
          Issues That Surfaced During the Settlement Initiative Suggest
          Possible Next Steps for Curtailing Abusive Tax Shelters ............................Page 5
                    Recommendation 1:........................................................Page 8

                    Recommendation 2:........................................................Page 10


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Management’s Response to the Draft Report ......................Page 15
                   The Settlement Initiative for Investors in a Variety of Bond and
                   Option Sales Strategies Was Successful and Surfaced Possible
                           Next Steps for Curtailing Abusive Tax Shelters




                                            Background

The taxpaying public has long sought ways to minimize tax liabilities by sheltering income and
gains from taxes through investments and other financial-related transactions. Some tax shelters,
however, have received widespread publicity because they purportedly abuse the tax law,
represent a significant loss of tax revenue, and undermine the public’s confidence in the tax
system. The Son of Boss (Bond and Option Sales Strategies1) is one such abusive tax shelter.
The Internal Revenue Service (IRS) determined that, other than generating tax benefits, the Son
of Boss abusive tax shelter lacked a business purpose and it had understated tax liabilities in
excess of $6 billion.
The IRS describes the Son of Boss abusive tax shelter as a highly sophisticated, technically
complex, no-risk scheme designed to generate tax losses without corresponding economic risks
that was promoted by some prominent firms in the financial services industry to investors
seeking to shelter large gains from the sale of a business or capital asset. The scheme used
flowthrough entities, such as partnerships, and various financial products2 to add steps and
complexity to transactions that had little or no relationship to the investor’s business or the asset
sale creating the sheltered gain. Additionally, the losses generated from the transactions were
often reported among other “legitimate” items in several parts of the income tax return. Some
losses from the Son of Boss abusive tax shelter, for example, were reported as a reduction to
gross sales, cost of goods sold, or capital gains. Taken together, these characteristics, especially
the use of flowthrough entities, made it very difficult for the IRS to detect the Son of Boss
abusive tax shelter through its traditional process of screening returns individually for
questionable items.
According to IRS officials, the Son of Boss abusive tax shelter surfaced as a way for promoters
to circumvent the provisions of IRS Notice 99-59, issued in December 1999 to curtail the Boss
tax shelter. The Son of Boss abusive tax shelter was initially identified from irregularities found
in examinations and from information developed through a confidential informant. As more
details emerged about the Son of Boss abusive tax shelter, the IRS initiated investigations of
promoters to obtain lists of investors that purchased the transactions from the promoters and
developed a strategy for resolving the investors’ income tax returns.




1
  Internal Revenue Service Notice 99-59, Tax Avoidance Using Distributions of Encumbered Property,
1999-2 C.B. 761; 1999-52 I.R.B. 761. Notice 99-59, dated December 27, 1999, described “Boss” transactions as
certain losses involving partnerships and foreign corporations that would not be allowed for tax purposes.
2
  The IRS defines financial products as instruments used in the global marketplace; they include, among others,
stocks, bonds, foreign currencies, mortgages, commodities, and derivatives.
                                                                                                          Page 1
                 The Settlement Initiative for Investors in a Variety of Bond and
                 Option Sales Strategies Was Successful and Surfaced Possible
                         Next Steps for Curtailing Abusive Tax Shelters



Although the IRS does not know the total number of participants in the Son of Boss abusive tax
shelter, promoter investigations combined with other efforts, such as cross-checking information
reported under disclosure statements, identified thousands of potential investors in Son of Boss
transactions. Absent the Son of Boss settlement initiative, the sheer number of potential
investors identified could have posed significant resource challenges for the IRS with a potential
backlog of cases that needed to be examined and possibly litigated.
Announced publicly on May 5, 2004, the goal of the settlement initiative was to provide an
opportunity for the IRS and investors to quickly resolve disputes over the Son of Boss abusive
tax shelter. As such, the initiative provided benefits for both parties. For the IRS, the initiative
(1) saved time and resources by streamlining the resolution process; (2) promoted voluntary
compliance by having investors disclose their participation, if any, in other listed transactions;
and (3) accelerated tax collections by requiring investors to immediately pay or make
arrangements to pay any additional taxes, interest, and penalties owed. For the investors
participating in the settlement initiative, it similarly saved time and money they may have spent
in a protracted dispute with the IRS. It also allowed investors to avoid the imposition of
penalties under certain circumstances and to offset disallowed losses attributable to the Son of
Boss abusive tax shelter by the amount of out-of pocket transaction fees they had paid to
promoters.
This review was performed in the IRS Large and Mid-Size Business (LMSB) and Small
Business/Self-Employed (SB/SE) Divisions, which are respectively headquartered in
Washington, D.C., and New Carrollton, Maryland, during the period October 2004 through
August 2005. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                              Page 2
                 The Settlement Initiative for Investors in a Variety of Bond and
                 Option Sales Strategies Was Successful and Surfaced Possible
                         Next Steps for Curtailing Abusive Tax Shelters




                                 Results of Review

The Son of Boss Abusive Tax Shelter Received Top Priority to Ensure
a Successful Settlement Initiative
The IRS considers identifying and combating abusive tax shelters extremely important, and the
SB/SE and LMSB Divisions reflected this priority in the emphasis given to resolving the Son of
Boss abusive tax shelter and ensuring a successful settlement initiative. Prior to offering the Son
of Boss settlement initiative publicly, the IRS was already actively pursuing promoters of the
Son of Boss tax shelter and had initiated investigations of 36 promoters to gain access to the lists
of investors who bought Son of Boss transactions. The investigations resulted in, among other
things, identifying thousands of investors in the Son of Boss abusive tax shelter and other
potentially abusive transactions.
In its efforts to enhance techniques for identifying and dealing with participants in the Son of
Boss abusive tax shelter, the IRS worked with State and city tax officials through
information-sharing agreements. The agreements, according to the IRS Commissioner, enabled
tax administrators at the Federal Government and local levels to support each others’ efforts and
avoid duplication of work. Although we did not systematically measure the results from the
information-sharing agreements, we did interview tax officials from three States and compared
the investors in the Son of Boss abusive tax shelter the States had identified to those detected by
the IRS. In doing so, we saw evidence of strategies, procedures, and lists containing participants
in the Son of Boss abusive tax shelter being exchanged and evaluated. We did not find any
instances in which the States were pursuing enforcement action against a participant in the Son
of Boss abusive tax shelter that had not been detected by and/or shared with the IRS.
The IRS publicly announced the settlement initiative in May 2004, and management at all levels
closely coordinated the initiative’s implementation to ensure its success. A centralized office
was established to receive investor application packages, where they were screened for
suitability and forwarded to Examination function groups located in offices throughout the
country. Once the packages were received in the groups, examiners were assigned to validate
the accuracy of the information on the investor application, determine the amount of
out-of-pocket expenses to allow, compute the amount of additional taxes owed, execute a closing
agreement, and make arrangements with the investor to receive payment for amounts owed.
Throughout the initiative, interim reports were prepared as a control mechanism to monitor
progress and track the cases for both investors participating in the settlement and
nonparticipating investors.


                                                                                             Page 3
                  The Settlement Initiative for Investors in a Variety of Bond and
                  Option Sales Strategies Was Successful and Surfaced Possible
                          Next Steps for Curtailing Abusive Tax Shelters



Interim reports on March 16, 2005, showed 1,039 participating investors had settled their cases
by paying or agreeing to pay over $2.7 billion in taxes, interest, and penalties. Our review of
closed case files supporting 41 of the participating investor settlements determined that taxes,
interest, and penalty amounts were accurately incorporated into and reflected on the
March 16, 2005, interim report and that all 41 investors were eligible for the settlement. As
summarized in Figure 1, examiners validated and documented evidence to support allowing
investors to deduct their out-of-pocket transaction costs of $17.2 million, which were typically
paid to promoters, in exchange for agreeing to tax, interest, and penalty assessments totaling
$95.9 million. Examiners discussed the terms of the settlement with investors and accurately
prepared the closing agreements that were signed by the examiner and the investor or his or her
designee.

                           Figure 1: Selected Characteristics From
                         41 Son of Boss Investor Settlement Packages
                                                                                                Dollars in Millions

                   Selected Characteristics                        Average          Range              Total
  Gross Income Reported on Investors’ Tax Returns                     $4.4         $0 – 63.7           $180.9
  Taxable Income Reported on Investors’ Tax Returns                   $3.8         $0 – 56.2           $155.7
  Son of Boss Adjustments to Reported Taxable Incomes                 $7.9         $0 – 51.3           $323.0
  Out-of-Pocket Expenses Allowed As Deductions                        $0.4          $0 - 3.2            $17.2

  Additional Taxes Assessed                                           $2.0         $0 – 16.1            $80.7
  Penalties Assessed                                                  $0.1          $0 – 0.6             $4.1
  Interest Assessed                                                   $.3           $0 – 2.6            $11.1
  Taxes, Penalties, and Interest Assessed                             $2.3          $0 - 18.7        $95.9 (a)

(a) Due to rounding, numbers may not add or subtract precisely.
Source: Complied by the Treasury Inspector General for Tax Administration (TIGTA) from IRS Investor Settlement
Packages.

Despite the successes achieved by the IRS in the settlement initiative, much work remains to
resolve the tax accounts of the investors that declined or were ineligible to participate in the
settlement initiative. For example, as of March 16, 2005, IRS officials had identified 670 of
these nonparticipating investors and had their income tax returns under or selected for
examination. As recently as July 2005, IRS officials reported that they were continuing to work
on nonparticipating investor cases by ensuring all related flowthrough entities were included in
examinations, so all tax benefits from the Son of Boss abusive tax shelter could be disallowed.


                                                                                                          Page 4
                    The Settlement Initiative for Investors in a Variety of Bond and
                    Option Sales Strategies Was Successful and Surfaced Possible
                            Next Steps for Curtailing Abusive Tax Shelters



Issues That Surfaced During the Settlement Initiative Suggest
Possible Next Steps for Curtailing Abusive Tax Shelters
Based on our work, we have two observations the IRS may find useful in its efforts to curtail
abusive tax shelters. First, the length of time allowed for Federal Government and State tax
administrators to thoroughly examine and assess additional taxes against all identified
participants in the Son of Boss abusive tax shelter was insufficient. Although extending the
assessment period would require a legislative change, an extension could be a powerful tool for
curtailing participation in abusive tax shelters and protecting the Federal Government’s revenue
by recovering taxes that might otherwise be lost. Second, the IRS could benefit by evaluating
and documenting its overall performance in resolving the Son of Boss abusive tax shelter should
it face a similar challenge of this magnitude in the future.

Extension of the statutory assessment period could provide a powerful tool for
curtailing participation in abusive tax shelters
Under the Internal Revenue Code, the IRS has generally3 a 3-year period to examine a tax return
and assess any additional income tax that may be due. This statutory period for assessment is
usually the same at the State level since most State income tax laws mirror those of the Federal
Government. However, experience demonstrated that 3 years was insufficient for tax
administrators to examine and assess all identified participants in the Son of Boss abusive tax
shelter. As of July 2005, the IRS estimated that $21.9 million of taxes related to 71 income tax
returns of Son of Boss investors could not be assessed because of expired statutes. The actual
loss to the Department of the Treasury is likely much higher because the estimate does not
include interest and penalties.
Legislators at both the State and Federal Government levels recognized the benefits that could be
realized by extending the statutory assessment periods for participants in abusive tax shelters and
enacted legislation. Specifically, the extended periods are intended to better protect tax revenues
because they afford tax administrators more time to identify, thoroughly examine, and assess
additional taxes against those involved in abusive tax shelters. In short, the longer the statute
remains open, the greater the risk participants have in being detected by tax administrators,
which can have a positive effect on deterring participation in abusive tax shelters.
Although it is difficult to precisely estimate the fiscal impact of abusive tax shelters, State
officials in California estimated losing between $2.4 billion and $4 billion over 4 years to various

3
  The Internal Revenue Code also provides for various automatic extensions of the assessment period. For example,
when the IRS issues a statutory notice of tax deficiency, the assessment statute of limitations is extended 90 days to
give the taxpayer the opportunity to petition the Tax Court. Taxpayers and the IRS can also mutually agree to
extend the statute of limitations indefinitely or for a specified period of time. This agreement usually occurs when
the IRS determines it needs additional time to complete an examination and related administrative processing
actions.
                                                                                                              Page 5
                    The Settlement Initiative for Investors in a Variety of Bond and
                    Option Sales Strategies Was Successful and Surfaced Possible
                            Next Steps for Curtailing Abusive Tax Shelters



abusive tax shelters. They changed State income tax laws to give California State tax
administrators up to 8 years to assess additional taxes related to abusive tax shelters. Steps were
also taken in New York and Illinois to double statutory assessment periods from 3 years to
6 years.
At the Federal Government level, where the loss from abusive tax shelters has been estimated at
$85 billion,4 Congress similarly provided the IRS with additional time to identify, examine, and
assess additional taxes related to abusive tax shelters. A provision in the American Jobs Creation
Act of 2004 (AJCA),5 enacted on October 22, 2004, allows the IRS up to 1 additional year on the
normal 3-year statutory assessment period to assess taxes related to a “listed” transaction6 if it is
not properly disclosed on the tax return. Notably, the additional year does not begin until an
unreported listed transaction is disclosed to the IRS by either the investor or material advisor.7
Consequently, the statutory assessment period could remain open indefinitely, so long as the IRS
is not properly furnished the required information.
Despite the positive, open-ended feature in the AJCA provision, its 1-year limitation could prove
overly restrictive to fully realizing intended benefits from the extended assessment period. As
summarized in Figure 2, we analyzed 1,958 income tax return examinations of investors in the
Son of Boss abusive tax shelter and found that, after the investors were identified, over
2 years elapsed (on average) before the examinations were completed and assessments made.




4
  Internal Revenue Service: Challenges Remain in Combating Abusive Tax Shelters (GAO-04-104T,
dated October 2003).
5
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
6
  A listed transaction is the same as or substantially similar to one of the types of transactions the IRS determined to
be a tax avoidance transaction and identified by notice, regulation, or other form of published guidance.
7
  A person is a material advisor if the person is required to register the transaction under the Internal Revenue Code,
or the person receives or expects to receive at least a minimum fee with respect to the transaction, and the person
makes a tax statement to or for the benefit of a taxpayer required to disclose the transaction.
                                                                                                                Page 6
                    The Settlement Initiative for Investors in a Variety of Bond and
                    Option Sales Strategies Was Successful and Surfaced Possible
                            Next Steps for Curtailing Abusive Tax Shelters



          Figure 2: Time Periods for Examining Son of Boss Investor Returns
                            and Assessing Additional Taxes Owed
    Milestones for Participants and Nonparticipants in the Son of Boss              Average            Median
                           Settlement Initiative                                     Days               Days
                                              Participating Investors
    Identification Date to Examination Start Date                                      495               545
    Examination Start Date to the Earlier of the Assessment Date or
                                                                                       384               288
    September 30, 2005
    Overall Time Period for 1,380 Income Tax Returns Analyzed in This
                                                                                       869               966
    Category

                                           Nonparticipating Investors
    Identification Date to Examination Start Date                                      470               508
    Examination Start Date to the Earlier of the Assessment Date or
                                                                                       453               399
    September 30, 2005 (a)
    Overall Time Period for 578 Tax Returns Analyzed in This Category                  894              1,006

    Overall Time Periods for 1,958 Tax Returns Analyzed in Both
                                                                                       877               972
    Categories

(a) We used September 30, 2005, as a cutoff date for 369 examinations that were ongoing as of this date.
Source: Compiled by the TIGTA from the Examination Records Control System and the Office of Tax Shelter
Analysis databases.8 For the taxpayer data used in the compilation, a promoter was contacted by the IRS for an
audit of promoter activities.

At least two factors can affect the amount of time it takes to complete the examination and
assessment process after participants in an abusive tax shelter are identified. First, resource
constraints can affect the time it takes to start examinations. With recent statistics showing the
IRS is significantly increasing the number of individual and corporate examinations it conducts,
examiners are likely involved in ongoing examinations and may not always be in position to
immediately start new examinations. As a result, a tax return scheduled for examination may be
held for a period of time in the unassigned inventory of examiners. Second, examination of
abusive tax shelters can take a significant amount of time even for the most experienced
examiners. Abusive tax shelters often involve complex, technical transactions that take on
different variations and require examining multiple flowthrough entities to make a proper tax


8
  The Examination Returns Control System automates tax return inventory control and time-reporting processes.
The Office of Tax Shelter Analysis database is intended to be used by all of the IRS as a source of reference and as a
research tool for revenue agents across division lines. It is also used for management reporting to Congress, the
Department of the Treasury, IRS executives, and the Government Accountability Office.
                                                                                                               Page 7
                   The Settlement Initiative for Investors in a Variety of Bond and
                   Option Sales Strategies Was Successful and Surfaced Possible
                           Next Steps for Curtailing Abusive Tax Shelters



determination. We did not find that either factor was considered in the legislative process that
established the 1-year limitation.

The IRS could benefit by analyzing and documenting its overall performance in
resolving the Son of Boss abusive tax shelter
Another possible next step the IRS could take is to plan for and conduct an assessment that
captures the overall successes achieved and lessons learned in resolving the Son of Boss abusive
tax shelter cases. Such an assessment could provide an important tool for managers to use in the
future if they are faced with a challenge of this magnitude and would be in line with both the
Government Performance and Results Act of 19939 and IRS guidance for analyzing performance
and identifying improvement options. Because of the analysis already performed by the IRS
staff that was involved in planning and implementing the Son of Boss settlement initiative, we do
not believe the assessment would involve a significant amount of time or resources. At the
request of the Chairman and Ranking Member of the Senate Finance Committee, for example,
IRS staff provided a detailed progress report as recently as July 2005 outlining the extensive
amount of work that had been accomplished on the Son of Boss settlement initiative.
The report identified a number of lessons learned in the Son of Boss settlement initiative that
should be useful in identifying any changes in procedures or processes that might be needed in
future settlement initiatives. The report also noted that about $36 million was spent on the
initiative, while approximately $54 million in resource expenditures were saved. However, cases
involving hundreds of investors identified in the Son of Boss abusive tax shelter have yet to be
resolved because investors were either ineligible or decided not to participate in the settlement
initiative. There are likely opportunities to capture additional valuable lessons learned as these
cases move through the tax system to final resolution.

Recommendations
As the executive manager over the Son of Boss settlement initiative, the Commissioner,
SB/SE Division, should:
Recommendation 1: Work with the IRS Office of Chief Counsel and the Office of Tax
Policy in the Department of the Treasury to determine whether the AJCA provision extending
the statutory assessment period with respect to listed transactions that are not disclosed is
adequate to protect tax revenues and deter participation in abusive tax shelters. That
determination should consider the results of work done by us and the IRS, including the
numerous Son of Boss investors the IRS has identified as avoiding additional assessments due to
the statute of limitations. If the determination is made that the AJCA provision is likely to be


9
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.)
                                                                                                            Page 8
                The Settlement Initiative for Investors in a Variety of Bond and
                Option Sales Strategies Was Successful and Surfaced Possible
                        Next Steps for Curtailing Abusive Tax Shelters



ineffective, these Offices should prepare a proposal for Congress to increase the statutory
assessment period under the AJCA, so it more accurately reflects the time needed to identify,
examine, and assess participants in technically complex abusive tax shelters.
     Management’s Response: The IRS did not agree to take action and determine whether
     the AJCA provision extending the statutory assessment period is adequate for protecting
     tax revenues and deterring participation in abusive tax shelters. IRS management indicated
     in their response that more experience is needed before they can determine whether the
     1-year provision provided by the AJCA is adequate and made technical comments to
     further highlight their position for not taking action on the recommendation. Additionally,
     IRS management had comments to clarify specific sections of the draft report, and we
     made these changes where appropriate.
     Office of Audit Comments: We believe the IRS may be missing an opportunity to
     further strengthen its ability to combat abusive tax shelters by not taking action on the
     recommendation. With regard to three of the IRS’ technical comments, we believe some
     clarification is needed.
     First, the IRS stated that, due to complexities and other issues, Son of Boss abusive tax
     shelter cases were deliberately delayed to ensure appropriate issue development and are not
     representative of the population of other tax shelter returns. We did not intend, nor do we
     believe it is implied in the report, for our analysis to represent the population of tax shelter
     returns because this was outside the scope of the review. However, we view the sheer
     number of investors as significant and recognized in the report that issue development
     involving complex transactions, such as those found in Son of Boss abusive tax shelter
     cases, can involve a significant amount of time to make a correct tax determination.
     Consequently, we made a recommendation to determine if the 1-year AJCA provision
     extending the statute for assessment is adequate.
     Second, the IRS suggested that we further clarify the impact of the extended assessment
     period under the AJCA throughout the audit report. We disagree with the IRS on this point
     and believe the analysis presented in the report on the 1,958 income tax return
     examinations from investors involved in the Son of Boss abusive tax shelter along with the
     accompanying narrative show that the AJCA could prove overly restrictive to fully
     realizing intended benefits.
     Third, the IRS indicated that, when a taxpayer meets the 1-year period, the examiner may
     request consent from the taxpayer to extend the statute. Our report acknowledged that
     examiners and taxpayers can mutually agree in writing to extend the statute of limitations
     indefinitely or for a specified period of time. However, taxpayers are not always willing to,
     nor are they required to, extend the statute of limitations for the assessment of taxes. Thus,
     we do not believe relying on the willingness of taxpayers, particularly those that may be


                                                                                              Page 9
                 The Settlement Initiative for Investors in a Variety of Bond and
                 Option Sales Strategies Was Successful and Surfaced Possible
                         Next Steps for Curtailing Abusive Tax Shelters



     involved in an abusive tax shelter, is a sufficient mechanism for protecting tax revenues
     and deterring participation in abusive tax shelters.
Recommendation 2: Designate a study group to evaluate the IRS’ overall performance in
resolving the Son of Boss abusive tax shelter. The evaluation should identify all challenges the
IRS faced in dealing with the Son of Boss abusive tax shelter, including the successes and
lessons learned in resolving tax accounts for investors that did not participate in the settlement
initiative. Additionally, the evaluation should be well documented, to provide a roadmap for
dealing with future abusive tax shelters of this magnitude.
     Management’s Response: IRS management agreed with this recommendation and
     stated they have convened a study group to evaluate the overall performance in resolving
     the Son of Boss abusive tax shelter. The study group’s report is expected by June 30, 2006.




                                                                                            Page 10
                   The Settlement Initiative for Investors in a Variety of Bond and
                   Option Sales Strategies Was Successful and Surfaced Possible
                           Next Steps for Curtailing Abusive Tax Shelters



                                                                                                  Appendix I

        Detailed Objectives, Scope, and Methodology

The objectives of this review were to determine the success of implementing the settlement
initiative for participants in a variety of Bond and Option Sales Strategies, commonly referred to
as the “Son of Boss” tax shelter, and the actions taken against those that declined or were
ineligible to participate in the initiative. During the review, we relied on databases provided to
us by the Internal Revenue Service (IRS). Although we did not perform audit tests to determine
the accuracy and reliability of the information in any of the databases, we checked the
reasonableness of our results against source information in closed case files. Our tests are
described below and did not identify any errors in the information used from the databases.
Additionally, unless otherwise noted, we used judgmental sampling techniques to minimize time
and travel costs. To accomplish the objective, we:
I.      Reviewed source material to gain an understanding of the Son of Boss abusive tax shelter
        and the related settlement initiative. These sources included the Internal Revenue Code;
        Treasury Regulations; IRS notices, announcements, and revenue procedures; and the
        Internal Revenue Manual.
II.     Reviewed prior Government Accountability Office and Treasury Inspector General for
        Tax Administration reports, discussion papers, and similar documents prepared by the
        IRS, State tax administrators, and other stakeholders to identify concerns and issues with
        abusive tax shelters.
III.    Analyzed case files supporting a judgmental sample of 41 of 659 investors participating
        in the settlement initiative whose cases were closed to verify whether they met eligibility
        requirements; provided evidence to support the allowance of out-of-pocket expenditures;1
        had their liabilities for taxes, penalties, and interest accurately computed; paid or made
        arrangements to pay the taxes, interest, and penalty amounts computed as owed; signed
        closing agreements that were accurately prepared based on the amount of taxes, interest,
        and penalties owed; and had their accounts on the IRS Master File2 updated to reflect the
        amounts reflected in the closing agreements.
IV.     Analyzed the accounts of the investors the IRS had identified as of March 16, 2005, that
        were not participating in the settlement initiative to verify whether they were or had been
        under examination.


1
  Out-of-pocket expenses are transaction fees that were typically paid by investors to promoters.
2
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and tax-exempt and government entity data.
                                                                                                           Page 11
                    The Settlement Initiative for Investors in a Variety of Bond and
                    Option Sales Strategies Was Successful and Surfaced Possible
                            Next Steps for Curtailing Abusive Tax Shelters



V.       Interviewed key IRS officials who were involved with or whose work was affected by the
         Son of Boss settlement initiative to obtain their opinions about how well the initiative
         was working and learn about problems encountered.
VI.      Consulted with State tax administrators from California, Illinois, and New York to learn
         about their experiences with and efforts to combat the Son of Boss abusive tax shelter.
VII.     Analyzed Son of Boss and Examination Records Control System3 data to determine the
         length of time involved with discovering, examining, and assessing taxes owed from
         1,958 examined tax returns in the Son of Boss abusive tax shelter. This represents the
         total number of returns under examination for which we identified a material advisor4
         under examination and the tax shelter participant return was opened for examination.




3
 The Examination Returns Control System automates tax return inventory control and time-reporting processes.
4
 A person is a material advisor if the person is required to register the transaction under the Internal Revenue Code,
or the person receives or expects to receive at least a minimum fee with respect to the transaction, and the person
makes a tax statement to or for the benefit of a taxpayer required to disclose the transaction.
                                                                                                             Page 12
               The Settlement Initiative for Investors in a Variety of Bond and
               Option Sales Strategies Was Successful and Surfaced Possible
                       Next Steps for Curtailing Abusive Tax Shelters



                                                                              Appendix II

                 Major Contributors to This Report

Curtis Hagan, Assistant Inspector General for Audit (Small Business and Corporate Programs)
Kyle Andersen, Director
Frank Dunleavy, Audit Manager
Stanley Pinkston, Lead Auditor
Earl Charles Burney, Senior Auditor
Ali Vaezazizi, Auditor




                                                                                      Page 13
               The Settlement Initiative for Investors in a Variety of Bond and
               Option Sales Strategies Was Successful and Surfaced Possible
                       Next Steps for Curtailing Abusive Tax Shelters



                                                                             Appendix III

                          Report Distribution List

Chief Counsel CC
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Pre-Filing and Technical Guidance, Large and Mid-Size Business Division
SE:LM:PFTG
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
      Chief Counsel CC
      Commissioner, Large and Mid-Size Business Division SE:LM
      Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 14
    The Settlement Initiative for Investors in a Variety of Bond and
    Option Sales Strategies Was Successful and Surfaced Possible
            Next Steps for Curtailing Abusive Tax Shelters



                                                        Appendix IV

Management’s Response to the Draft Report




                                                               Page 15
The Settlement Initiative for Investors in a Variety of Bond and
Option Sales Strategies Was Successful and Surfaced Possible
        Next Steps for Curtailing Abusive Tax Shelters




                                                           Page 16
The Settlement Initiative for Investors in a Variety of Bond and
Option Sales Strategies Was Successful and Surfaced Possible
        Next Steps for Curtailing Abusive Tax Shelters




                                                           Page 17
